                OFFICE OF INSPECTOR GENERAL

          LIMITED SCOPE AUDIT REPORT
                                    ON SELECTED
                                   NEA GRANTS TO

                       Minnesota State Arts Board
                                         St. Paul, MN

                            REPORT NO. LS-13-03
                                      March 15, 2013




                                 REPORT RELEASE RESTRICTION

In accordance with Public Law 110-409, The Inspector General Act of 2008, this report shall be posted on
the National Endowment for the Arts (NEA) website not later than three (3) days after it is made publicly
available with the approval of the NEA Office of Inspector General. Information contained in this report
may be confidential. The restrictions of 18 USC 1905 should be considered before this information is
released to the public. Furthermore, information contained in this report should not be used for purposes
other than those intended without prior consultation with the NEA Office of Inspector General regarding its
applicability.
                                INTRODUCTION
BACKGROUND
The Minnesota State Arts Board (MSAB), based in St. Paul, MN, is a state agency that
stimulates and encourages the creation, performance, and appreciation of the arts in
Minnesota. In 1903, the Minnesota State Legislature established the State Arts Society to
"advance the interests of the fine arts, to develop the influence of art in education, and to
foster the introduction of art in manufactures." In 1975, the agency's name was changed
to MSAB.

OBJECTIVE, SCOPE, AND METHODOLOGY
Limited scope audits involve a limited scope review of financial and non-financial
information of grant recipients to ensure validity and accuracy of reported information,
and compliance with Federal requirements. The objective of this limited scope audit by
the National Endowment for the Arts (NEA) Office of Inspector of General (OIG) was to
determine whether the:

   •   grantee fulfilled the financial and compliance requirements as set forth in the
       grant awards;
   •   total project costs claimed under the grants were reasonable, allocable, and
       allowable; and
   •   required match was met on NEA grant funds.

Our audit was conducted in accordance with the Government Auditing Standards (2011),
issued by the Comptroller General of the United States. Accordingly, we included such
tests of records and other auditing procedures that were considered necessary under the
circumstances. The "Standards" require that we obtain sufficient, appropriate evidence to
afford a reasonable basis for our findings and conclusions. We evaluated the recipient's
compliance with the U.S. Office of Management and Budget (OMB) and NEA guidance.
In addition, we evaluated the recipient’s compliance with OMB and NEA guidance for
the management of the American Reinvestment and Recovery Act of 2009 (Recovery
Act) funding.

The Recovery Act provided $50 million to the NEA to be distributed in direct grants to
fund arts projects and activities which preserve jobs in the nonprofit arts sector threatened
by declines in philanthropic and other support during the current economic downturn.
Consistent with the language in the Act, eligible projects are generally limited to salary
support and fees for artists or contracted personnel.




                                             1
For the scope of this audit, we reviewed four of the six NEA grants in which funds had
been drawn down and costs had been reported. The grants reviewed are as follows:

                  Grant No.        Award Amount          Total Outlays
                 08-3900-7001          $ 30,000             $     30,000
                 08-6100-2017             775,900             11,117,975
                 09-6100-2019             822,300             25,417,479
                 09-6188-2101             316,200                316,200
                   TOTAL               $1,944,400           $36,881,654

PRIOR AUDIT COVERAGE
During the past five years, NEA OIG has not issued any audit reports on MSAB. As of
our site visit on August 6, 2012, the most recent issued independent auditor’s report on
MSAB was for the fiscal year ended June 30, 2011. The audit was conducted by the
State of Minnesota, Office of the Legislative Auditor, an independent auditing agency
with the State of Minnesota government, which issued an unqualified (clean) opinion.
MSAB was subject to the audit requirements of OMB Circular A-133 because it is a part
of the State of Minnesota. However, MSAB Federal programs were not selected as a
major program and was not reviewed during the single audit.

                            RESULTS OF AUDIT
Our limited scope audit determined that MSAB complied with the financial management
system and recordkeeping requirements established by OMB and NEA for its Recovery
Act Grant No. 09-6188-2101. However, we identified some areas for improvement to
ensure MSAB complies with OMB and NEA grant requirements and improves its
management of NEA awards. MSAB did not have written policies and procedures on
suspension and debarment. MSAB also did not maintain documentation to support cost
reported on its final Federal Financial Report (FFR) for its NEA Grant No. 08-6100-
2017.

                      FINANCIAL MANAGEMENT
Suspension and Debarment

MSAB did not have written policies and procedures in place to ensure that contractors or
recipients were not suspended or debarred from receiving Federal funds prior to the
payment or award of Federal funds.

NEA General Terms states, "You must comply with requirements regarding debarment
and suspension in Subpart C of 2 CFR Part 180, as adopted by the Arts Endowment in
Title 2 CFR, Chapter 32, Part 3254."




                                           2
MSAB officials stated that even though written policies and procedures for suspension
and debarment are not in place, there are procedures that take place to ensure ineligible
organizations or persons do not receive Federal funding. Subgrantee contracts include a
self-certification stating that neither it nor its principals are debarred, suspended,
proposed for debarment, declared ineligible, or voluntarily excluded from participation in
covered transactions by any Federal department or agency. Without written policies and
procedures for suspension and debarment, ineligible organizations or persons could
receive Federal funding.

We recommend MSAB develop written policies to ensure that contractors and recipients
are not suspended or debarred from receiving Federal funds prior to the payment or
award of Federal funds.

NEA GRANT No. 08-6100-2017
Record Retention

We determined that MSAB included unsupported travel costs on its final FFR. MSAB
did not maintain proper documentation for one of the 15 cost transactions reviewed
during our test work. We also determined that MSAB did not have written record
retention policies and procedures in place.

NEA General Terms states, "You must maintain financial records, supporting documents
(such as cancelled checks, invoices, contracts, travel reports, donor letters, in-kind
contribution reports, and personnel activity reports), statistical records, and all other
records pertinent to an award according to the provisions outlined in OMB Circular A-
110 (2 CFR 215), Section 53, or the "Common Rule," Section 1157.42, as applicable.
Generally, the retention period is three years from the date the final FFR is filed."

As a result of MSAB charging unsupported costs to the grant, we are questioning
$142.75. However, if the questioned costs were disallowed for this grant, the one-to-one
matching requirement would still be met and no refund would be due to NEA.

We recommend that MSAB develop written policies and implement procedures to ensure
that documentation is maintained for all cost transactions.

                            EXIT CONFERENCE
We conducted a preliminary exit conference with a MSAB official on August 9, 2012.
Subsequent to our test work, a telephone exit conference was held with MSAB officials
on March 4, 2013. MSAB officials concurred with our findings and recommendations.




                                            3
                         RECOMMENDATIONS
We recommend that MSAB:

   1. Develop written policies to ensure that contractors and recipients are not
      suspended or debarred from receiving Federal funds prior to the payment or
      award of Federal funds.

   2. Develop written policies and implement procedures to ensure that documentation
      is maintained for all cost transactions.




                                          4
